Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Municipality of San Juan Police DepartmentSan Juan, Puerto Rico

Report No. GR-40-04-001


November 2003
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Municipality of San Juan, Puerto Rico, Police Department (SJPD).  The purpose of the grants is to enhance community policing. The SJPD was awarded a total of $37,648,635 to hire 782 new police officers and redeploy the equivalent of 15.4 existing full-time police officers from administrative duties to community policing.
We found the SJPD to be in material non-compliance with the COPS Office's grant requirements.  We reviewed the SJPD's compliance with seven essential grant conditions and except for the types of community policing activities that were being performed, we found weaknesses in each of the other areas we tested: budgeting for officers, hiring of officers, source of local matching funds, reimbursement requests, retention of officer positions, and officer redeployment.  As a result of the deficiencies identified below, we question $6,990,513 in grant funds received and recommend an additional $296,230 be put to better use.1


The SJPD did not budget throughout the grant periods to maintain at least the number of local officer positions (530) that were authorized prior to beginning the first COPS grant. 




The SJPD did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the SJPD is in violation of the COPS Office's non-supplanting requirement.      




The SJPD did not maintain adequate financial records to show the source, amount, and date of local matching funds for the COPS grants.    




The SJPD claimed and was reimbursed for salaries and fringe benefits incurred after the Universal Hiring Program (UHP) grant expired on November 30, 1998.  In addition, funds remained for this grant when it expired and should be deobligated and put to better use.




The UHP Supplement 1 award amount and the Making Officer Redeployment Effective (MORE) 2000 grant were overstated because the SJPD overestimated its costs for the grants in its grant applications.  The excess award amounts should be deobligated and put to better use.  




The SJPD did not claim all the allowable costs to which it was entitled to claim for the MORE 2000 grant within the allowable time period.      




The SJPD did not retain the required number of officer positions for its UHP grant and the first UHP Supplement during the required retention period. 




The SJPD did not maintain the required level of redeployment through the use of overtime for the MORE 95 grant during the retention period.  In addition, the MORE 95 grant had expired and the grantee did not use all the grant funds awarded.  The remaining grant funds should be deobligated and put to better use.  




The SJPD could support redeployment of only 35 percent of the required full-time equivalent officer positions for the MORE 2000 grant during both the grant period and the retention period.


These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.